No.
In THE

Supreme Court of the United States

 

 

Larry LAMAR NANCE,
Petitioner,
v.

UNITED STATES OF AMERICA,
Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Fourth Circuit

MOTION TO PROCEED JN FORMA PAUPERIS
Petitioner Larry Nance, though undersigned counsel, asks leave to file the
attached petition for a writ of certiorari without prepayment of costs and to proceed
in forma pauperis. Counsel was appointed in the United States Court of Appeals for
the Fourth Circuit and in the United States District Court for the Eastern District
of North Carolina pursuant to 18 U.S.C. ยง 3006A.
This the 18th day of September, 2020.

Respectfully submitted,

at Sth,

JACLYN L. TARLTON

ASSISTANT FEDERAL PUBLIC DEFENDER
OFFICE OF THE FEDERAL PUBLIC DEFENDER
EASTERN DISTRICT OF NORTH CAROLINA
150 Fayetteville St., Suite 450

Raleigh, N.C. 27601

(919) 856-4236

jackie_tarlton@fd.org

Counsel for Petitioner
